           Audit Report




Performance Indicator Audit:
      Hearing Requests




    A-15-12-12115| February 2013
MEMORANDUM


Date:      February 27, 2013                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Performance Indicator Audit: Hearing Requests (A-15-12-12115)

           We contracted with KPMG, LLP (KPMG) to evaluate three of the Social Security
           Administration’s performance indicators (PI) established to comply with the Government
           Performance and Results Act of 1993. The attached final report presents the results of the
           evaluation of one PI. KPMG’s objectives were to:

           1. Comprehend and document the sources of data that were collected to report on the specified
              PI.

           2. Identify and test critical controls (both electronic data processing and manual) of systems
              from which the specified performance data were gathered.

           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of the
              underlying data for each of the specified PI.

           4. Recalculate each measure to ascertain its accuracy.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Performance Indicator Audit: Hearing Requests
A-15-12-12115

February 2013                                                             Office of Audit Report Summary

Objectives                                Findings

To (1) comprehend and document the        KPMG tested the key internal controls over the Case Processing
sources of data that were collected to    and Management System, which generates the data supporting the
report on the specified performance       PI. Test work did not identify any findings related to the internal
indicator (PI); (2) identify and test     controls over the systems supporting the PI.
critical controls (both electronic data
processing and manual) of systems         KPMG obtained the underlying data supporting the PI and verified
from which the specified performance      that there were 795,424 total hearing requests completed in FY
data were gathered; (3) test the          2011. In addition, KPMG selected a sample of cases closed during
adequacy, accuracy, reasonableness,       the first and last weeks of the FY and verified the accuracy of the
completeness, and consistency of the      cases closed during the FY. KPMG’s work did not identify
underlying data for the specified PI;     significant findings regarding the adequacy, accuracy,
and (4) recalculate the measure to        reasonableness, completeness, and consistency of the underlying
verify its accuracy.                      data for the PI subject to audit. KPMG was able to recalculate the
                                          accuracy of the PI without exception.
Background
                                          Conclusion
We contracted with KPMG, LLP
(KPMG) to evaluate one of the Social      Based on the results of KPMG’s audit, they believe the PI was
Security Administration’s (SSA) PIs       adequate, accurate, reasonable, complete, and consistent with the
established to comply with the            underlying data. In addition, KPMG noted that internal controls
Government Performance and Results        over the system supporting the PI were operating effectively.
Act of 1993. KPMG audited the PI,
Complete the Budgeted Number of
Hearing Requests, which was included
in SSA’s Fiscal Year (FY) 2011
Performance and Accountability
Report (PAR).
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................2
     PI Background ...........................................................................................................................4
     PI Calculation.............................................................................................................................4
Results of Review ............................................................................................................................4
Conclusions ......................................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Flowcharts and Narratives .................................................................................. B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Performance Indicator Audit: Hearing Requests (A-15-12-12115)
ABBREVIATIONS
Act                 Social Security Act

ALJ                 Administrative Law Judge

FY                  Fiscal Year

GPRA                Government Performance and Results Act of 1993

MCS                 Modernized Claims System

MSSICS              Modernized Supplemental Security Income Claims System

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

PAR                 Performance and Accountability Report

PI                  Performance Indicator

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSDI                Social Security Disability Insurance

SSI                 Supplemental Security Income

U.S.C.              United States Code




Performance Indicator Audit: Hearing Requests (A-15-12-12115)
MEMORANDUM

Date: February 15, 2013

To:        Inspector General

From: KPMG, LLP

Subject: Performance Indicator Audit: Hearing Requests (A-15-12-12115)

OBJECTIVES
The Government Performance and Results Act of 1993 (GPRA) 1 seeks to improve the
Government’s internal management as well as program effectiveness and public accountability,
by promoting a focus on results, service quality, and customer satisfaction. 2 Specifically, GPRA
requires that the Social Security Administration (SSA) establish performance indicators (PI) to
measure or assess the relevant outputs, service levels, and outcomes of each program activity. 3
GPRA also requires a description of the means employed to verify and validate the measured
values used to report on program performance. 4

For this audit of SSA’s PI for Fiscal Year (FY) 2011, Complete the Budgeted Number of Hearing
Requests, our objectives were to:

1. Comprehend and document the sources of data that were collected to report on the specified
   PI.

2. Identify and test critical controls (both electronic data processing and manual) of systems
   from which the specified performance data were gathered.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of the
   underlying data for the specified PI.

4. Recalculate the measure to verify its accuracy.

                                           ******************

1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
2
    Pub. L. No. 103-62 §§ 2(a)(3) and (6), 107 Stat. 285.
3
    31 U.S.C. §1115(a)(4).
4
    31 U.S.C. § 1115(a)(6).




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                               1
This performance audit did not constitute an audit of financial statements in accordance with
generally accepted government auditing standards. KPMG, LLP (KPMG) was not engaged to,
and did not, render an opinion on SSA’s internal controls over financial reporting or financial
management systems (for purposes of Office of Management and Budget Circular A-127,
Financial Management Systems, July 23, 1993, as revised). KPMG cautions that projecting the
results of its evaluation to future periods is subject to the risks that controls may become
inadequate because of changes in conditions or because compliance with controls may
deteriorate.

BACKGROUND
We audited the following PI, which was included in SSA’s FY 2011 Performance and
Accountability Report (PAR).

                    PI                             FY 2011 Target                  FY 2011 Actual

Complete the Budgeted Number                           815,000 6                        795,424 7
of Hearing Requests. 5

SSA linked this performance indicator to its strategic objective 1.1, Increase Our Capacity to
Hear and Decide Cases, 8 and its strategic goal 1, Eliminate Our Hearings Backlog and Prevent
Its Recurrence. 9

SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program under Title
II of the Social Security Act (Act). OASDI provides income for eligible workers as well as
eligible members of their families and survivors. 10 Social Security Disability Insurance (SSDI)
provides benefits under the OASDI program, as authorized by Title II of the Act. SSDI provides
income for eligible workers with qualifying disabilities and eligible members of their families
before those workers reach retirement age. 11 The Supplemental Security Income (SSI) program,
authorized by Title XVI of the Act, was designed as a needs-based program to provide or


5
    SSA’s FY 2011 PAR, Page 50.
6
    Id.
7
    Id.
8
    SSA Annual Performance Plan for FY 2012 and Revised Final Performance Plan for FY 2011, Page 7.
9
    Id.
10
     Act §§ 201, 202, and 223; 42 U.S.C. §§ 401, 402, 423.
11
     Id.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                         2
supplement the income of aged, blind, and/or disabled individuals with limited income and
resources. 12 A claimant may receive disability benefits under the SSDI and/or SSI programs.




12
     Act §§ 1601 and 1605; 42 U.S.C. §§ 1381-1383f.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                  3
PI Background
For all initial disability claims submitted, an initial disability determination is made in one of the
following three ways: favorable, partially favorable, or unfavorable.

•      Favorable, where the claimant was determined to be disabled.

•      Partially favorable, where the claimant was determined to be disabled for only part of the
       time claimed.

•      Unfavorable, where the claimant was not determined to be disabled.

Once the decision is rendered, the claimant can either accept the decision or request
reconsideration of the claim. A claimant has 60 days to file for reconsideration, regardless of the
decision. Claimants can request reconsideration for a favorable decision if they disagree on how
the decision was reached. For example, if the claimant is mentally unstable and disagrees with
the diagnosis, the claimant can request reconsideration of a favorable decision. A
reconsideration request can be submitted electronically, through the mail, or in person at an SSA
field office. Once SSA reviews the reconsideration, it sends the claimant a Reconsideration
Decision. After claimants receive their Reconsideration Decision, they can accept the decision
or request a hearing to have their claim reviewed by an administrative law judge (ALJ). 13

PI Calculation
This PI is derived by determining the number of hearing requests completed in the current FY.


        Complete the budgeted number of                     Total number of hearing requests completed in
                                                      =      the current FY up to the number budgeted.
               hearing requests.


RESULTS OF REVIEW
We tested the key internal controls over the Case Processing and Management System, which
generates the data supporting the PI. Our tests did not identify any findings related to the
internal controls over the systems supporting the PI.




13
     Not all cases go through the reconsideration steps due to the Prototype operating in 10 States.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                               4
We obtained the underlying data supporting the PI and verified that 795,424 hearing requests
were completed in FY 2011. In addition, we selected a sample of cases closed during the first
and last weeks of the FY and verified the accuracy of the cases closed during the FY. Our work
did not identify significant findings regarding the adequacy, accuracy, reasonableness,
completeness, and consistency of the underlying data for the PIs subject to audit. We were able
to recalculate the accuracy of the PI without exception.

CONCLUSIONS
Based on the results of our audit, we believe the PI was adequate, accurate, reasonable, complete,
and consistent with the underlying data. In addition, we noted that internal controls over the
system supporting the PI were operating effectively.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                     5
                                      APPENDICES




Performance Indicator Audit: Hearing Requests (A-15-12-12115)
Appendix A – SCOPE AND METHODOLOGY
We obtained an understanding of the Social Security Administration’s (SSA) Government
Performance and Results Act of 1993 1 business processes related to the performance indicator
(PI), Complete the Budgeted Number of Hearing Requests. Our understanding was obtained
through research and interviews with key SSA personnel from the Offices of Applications and
Supplemental Security Income Systems as well as the Divisions of Management Information and
Analysis; Disability Adjudication and Review; and Disability Systems.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

•   Reviewed the Annual Performance Plan for Fiscal Year (FY) 2012 and Revised Final
    Performance Plan for 2011 to obtain an understanding of the FY 2011 PIs.

•   Reviewed prior Office of the Inspector General and Government Accountability Office
    reports related to SSA’s PIs.

•   Reviewed applicable laws, regulations, and SSA policy.

•   Reviewed documentation and flowcharts of the PI components.

•   Flowcharted the hearing request processes (see Appendix B).

•   Identified and tested key controls related to manual or basic computerized processes (for
    example, spreadsheets, databases, etc.).

•   Determined the adequacy, accuracy, reasonableness, completeness, and consistency of
    performance data reported in SSA’s FY 2011 Performance and Accountability Report.

•   Assessed the completeness and accuracy of the data to determine their reliability as they
    pertain to the audit objectives.

We conducted our performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives.

We determined the data used in this review were sufficiently reliable and believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                               A-1
Appendix B – FLOWCHARTS AND NARRATIVES
                                  Figure B–1: Hearing Request Process Flowchart

                                                 Claim Closed



                                                      No



                              Claim                                                                        Reconsideration
     Initial Claims                               Request a                      Reconsideration
                             Decision                                Yes                                      Decision
        Process                                 Reconsideration                     Process
                             Rendered                                                                        Rendered




                       Request an              Hearing
                                                                  Hearings                 Request a
         No           Appeal Council          Decision                              Yes                    No      Claim Closed
                                                                  Process                   Hearing
                         Review               Rendered


    Claim Closed
                           Yes



                                               Appeals
                         Appeals
                                               Council                Lawsuit Filed with
                         Council                                                                   No   Claim Closed
                                              Decision                US District Court
                         Process
                                              Rendered




                                                                              Yes


                                  End of
                                                     USDC                     USDC
                                 Disability
                                                    Decision                 Lawsuit
                                  Claim’s
                                                    Rendered                 Process
                                 Process



PROCESS NARRATIVE
Once a claimant has received their claim decision from the initial claims and subsequent
reconsideration processes, they can accept the decision given or request a hearing to have the
claim reviewed by an administrative law judge (ALJ). 1 The types of decisions that can be
appealed are as follows.




1
    Not all cases go through the reconsideration steps due to the Prototype operating in 10 States.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                                                B-1
 Favorable, where the claimant was determined to be disabled. This type of appeal is rare but
  can happen when the decision was based on evidence the claimant was deemed
  psychologically disabled, but they disagree with the prognosis.

 Partially favorable, where the claimant was determined to be disabled for only part of the
  time they were claiming.

 Unfavorable, where the claimant was not determined to be disabled.

A claimant has 60 days to file a request for a hearing upon notice of the decision made during the
reconsideration process. Claimants can file a request for hearing in one of two ways.

 Completing the Form HA-501, Request for Hearing by an ALJ, online via the iAppeals
  system.
 Completing a written request for a hearing and hand delivering or mailing the form to a
  Social Security Administration (SSA) field office.

Once the claimant has completed Form HA-501 through iAppeals, the Form is automatically
routed to one of the following systems.

 Modernized Claims System (MCS) for Title II (Social Security Disability Insurance)
  applications, which are disability benefits that are awarded based on payroll deductions that
  occur as a result of work activity and contributions made by self-employed workers.
 Modernized Supplemental Security Income Claims System (MSSICS) for Title XVI
  (Supplemental Security Income) applications. Title XVI payments are available to aged and
  disabled individuals who meet the necessary criteria.

If the claimant submits a written request for a hearing to the field office, field office personnel
must enter the hearing request into MCS or MSSICS, depending on the type of claim. Once the
hearing request is in MCS/MSSICS, the field office updates the Electronic Disability Claims
System. Generally, the Office of Disability Adjudication and Review processes cases on a first-
in, first-out basis using the hearing request date. Depending on the office policy, the case intake
technician or a manager may determine whether the case fits specific profiles to be reviewed by
an Attorney Adjudicator or ALJ. If the case fits any of these profiles, the technician refers it to
an attorney adjudicator for review. Attorney Adjudicators screen cases to determine whether
they can award benefits based solely on the record as it stands without a hearing. However, the
Attorney Adjudicator can only issue a fully favorable decision.

The case can also be a critical case, which requires an expedited hearing. There are several types
of critical cases: claimants in dire need and those for claimants with a terminal illness. Case
intake technicians also flag critical cases and refer them for possible on the record decisions. For
critical cases, if a fully favorable decision cannot be rendered without additional evidence, the
hearing request is still expedited.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                    B-2
ALJs can also screen cases in the ALJ Screening for on the Record or Dismissal. However,
unlike attorney adjudicators, ALJs can process all types of decisions including favorable,
partially favorable, and unfavorable.

To schedule a hearing, the hearing office staff coordinates with all parties, including the
representatives and expert witnesses, to determine when the hearing can be scheduled. The
support staff sends the notice of hearing to all the parties to appear at the hearing. After cases
have been scheduled, staff members continue taking action to process requests for
postponements, process development, and contact claimants who have failed to respond to their
notices. By regulation, notices must be sent at least 20 days before the hearing.

At the hearing, the ALJ takes the testimony of the claimant and their witnesses and of expert
witnesses. They can also request additional evidence or testimony that they want to see before
issuing a decision. The decision can be fully favorable, partially favorable, or unfavorable.
Once a decision is made, ALJs document their decision, write their instructions, draft the
decision, or have a decision writer draft it. After the decision is drafted, the ALJ reviews and
signs it. The decision based on the hearing request is issued and the hearing request considered
to be closed.




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                   B-3
                   Figure B–2: Hearing Requests Systems Process Flowchart
                                  Data entry for Hearings actions are maintained within                            Field Offices can process a request for
                                 the Field Offices or Office of Disability Adjudication and                        hearings three different ways:
                                                           Review                                                  1. Establish a request for the first time
                                                                                                                   2. Reactivate a closed request
                                                                                                                   3. Manually enter data because it is
                                                                                                                   not in EDCS, CPMS, or ARPS

                                                                                                                   ODAR can establish a new hearing
                                                      FO/ODAR                                                      record based on the receipt of a
                                                                                                                   request from a claimant or
                                                                                                                   representative either by letter or by
                                                                                                                   submission of a form for that purpose.
                                                                                                                   ODAR can re-establish a hearing
                                                                                                                   record due to an OAO remand, or a
                                                                                                                   federal court remand.



   CPMS
                                                                                                                         Cases can be established 1
                                                                                                                         of 3 ways in ARPS:
                                                                                                                         1. EDCS established case
                             EDCS                                                             ARPS                       2. Reactivation of a prior
                                                                                                                         ARPS case
                                                                                                                         3. Manually established
                                                                                                                         case (Copy Method or Add-
                                                                                                                         a-Case Method)
    Page
     C-5
                                                     MCS             MSSICS
                                                     Title II        Title XVI
                                                                                                     Acronym Definitions:
                                                                                                     • ALJ – Administrative Law Judge
                                                                                                     • ARPS – Appeals Review Processing System
                                                                                                     • CPMS – Case Processing Management System
                                                                                                     • DART – Disability Adjudication Review Tools
                                                                                                     • EDCS – Electronic Disability Collect System
                                                                                                     • EFI – Electronic Folder Interface
                                                                                                     • EMIS – Executive Management Information System
                                                                                                     • FO – Field Office
                                                                                                     • MCS – Modernized Claim System
                                                                                                     • MHAL – M Hearings Appeal & Litigation
                              SDR                                                                    • MHAODS – M Hearings & Appeals Operational Data Store
                                                                                                     • MI – Management Information
                                                                                                     • MIDIB – Management Information Disability
                                                                                                     • MSSICS – Modernized Supplemental Security Income Claim System
                                                                                                     • ODAR – Office of Disability Adjudication and Review
                                                                                                     • OAO - Office of Appellate Operations
                                                                                                     • SDR – Structured Data Repository
                 EFI (Electronic Folder Interface




                             MIDIB




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                                                                                   B-4
                               Figure B–3: Hearing Requests Systems Process Flowchart

 Definitions:

                                                                     Page                                                                  Scheduled production jobs that extract
 • ARPS – Appeals Review Processing System
                                                                      C-4                                                                  information from daily Hearings activity and
 • CPMS – Case Processing Management System
                                                                                                                                           generate a tape file which is downloaded to
 • DART – Disability Adjudication Review Tools
                                                                                                                                           HAODS database. The jobs are:
 • EDCS – Electronic Disability Collect System
 • EFI – Electronic Folder Interface                                                         Control Point 1 – CP1 jobs                    •     AOTRFEX1
 • EMIS – Executive Management Information System                CPMS/                       scheduled to extract                          •     AOTRFEX2
 • FO – Field Office                                              ARPS                       updated hearings data                         •     AOTRFEX3
 • MCS – Modernized Claim System                                Database                     from production and write                     •     AOTRFEX4
 • MHAL – M Hearings Appeal & Litigation                         (MHAL)                      to tape are scheduled                         •     AOTRFEX5
 • MHAODS – M Hearings & Appeals Operational Data                                            within Control M.                             •     AOTRFEX6
   Store                                                                                     Control Point – CP2 Run-                      •     AOTRCMBO
 • MI – Management Information                                                               to-run transaction counts
 • MIDIB – Management Information Disability              CP1
                                                          & 2 Nightly Batch                  from production
 • MSSICS - Modernized Supplemental Security Income                                          environment to tape.
   Claim System                                               Process reads
 • OAO – Office of Appellate Operations                       MHAL history
 • SDR – Structured Data Repository                         tables and saves
                                                               any changes




                                                                Traffic File
                                                                (Contains
                                                                 changes
                                                               made since
                                                               last update)

                                                                                                                                                         Scheduled production job
                                                                                                                                                         HA1C0100. Reads the tape
                                                                                                                          Control Point – CP3            file created during nightly
                                                              Production job                                                   Run-to-run                processing of the above jobs
                                                             HA1C0100 reads                                               transaction counts             and updates the HAODS
                                                            the Traffic File and                                              from tape to               database. MI verifies that
                                                             update the CPMS                                                    MHAODS                   the record count for the run
                                                               MI Database                                                                               agrees to the total record
                                                                (MHAODS)                                                                                 counts for each of the jobs.




                                                                                                                          Control Point – CP4
                                                                                                                           Access to change
                                                                MHAODS
                                                                                                                          data within MHAODS
                                                              (CPMS/ARPS
                                                                                                                             is restricted to
                                                              MI Database)
                                                                                                                               appropriate
                                                                                                                               individuals.




                                                                 Local MI
                                                              Processing that
                                                            creates the CPMS/
                                                            ARPS reports and
                                                                 Listings




                                                      CPMS/ARPS                CPMS/ARPS
                                                       MI Listings              MI Reports




                                                                      END




Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                                                                                                           B-5
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM

Date:      February 6, 2013                                                         Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Performance Indicator Audit: Hearing Requests”
            (A-15-12-12115)—INFORMATION


           Thank you for the opportunity to review the draft report. We do not have any comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.




           Performance Indicator Audit: Hearing Requests (A-15-12-12115)                                C-1
Appendix D – MAJOR CONTRIBUTORS
Victoria Vetter, Director, Financial Audit Division

Mark Meehan, Audit Manager, Financial Audit Division

Sig Wisowaty, Senior Auditor, Financial Audit Division




Performance Indicator Audit: Hearing Requests (A-15-12-12115)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
